No.

IN THE
SUPREME COURT OF THE UNITED STATES

JOHN ELMER — Appellant
vs.
STATE OF LOUISIANA—AppeUee(S)

PROOF OF SERVICE
I, John Elmer #185491. do swear or declare that on this date, February 17, 2020 as required by
Supreme Court Rule 291 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceedings or
that party’s counsel, and on every other person required to be served, be depositing an envelope
containing die above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid.
Hie names and address of those served are as follows:
District Attorney's Office
Paish of St. Charles
7856 Main St., Ste 220
Houma, LA 70360

JeffLandry
P.O. Box 94005
Baton Rouge, LA 70804

Darrel Vannoy, Warden
General Delivery
Louisiana State Penitentiary
Angola, LA 70712

I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 19.2021.

\\Mepd05VCS\lp-doDnstance80\My Documents\dlents\E\JEImer John #185491\Elmer John USCERTodt
John Elmer v. State ofLouisiana, Warden
25.

